C'OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214
1-800-225-6964 ‘
(402) 342-2831
Fax: (402) 342-4850

No. 19-679

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

AMY CORBITT, INDIVIDUALLY AND AS PARENT
AND NATURAL GUARDIAN OF SDC, A MINOR,

Petitioner,
Vv.
MICHAEL VICKERS,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface

requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 6700 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f f GENERAL NOTARY State of Gebraska
RENEE J, GOSS
My Comm. Exp. September 8, 2023

      

Notary Public
